No. 19-1186
I N THE

~upreme <!Court of tbe mntteb ~tate%
JOSHUA BAKER, in his official cap acity as Director, Sout h Carolina Department of
Health and Human Ser vices,

Petitioner,
V.

J ULIE EDWARDS, on her beh alf and on behalf of all other s similarly sit uated, et al.

R espondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h) , I cert ify t h at the Supplemental
Brief for Petitioner contains 568 words, excluding the p arts of t he brief t hat are
exempted by Supreme Court Rule 33.l(d).

Executed on October 8, 2020

Bu -SCH L AW,
9339 Cherry Valley Ave SE #78
Caledonia, MI 493 16
(6 16) 450-4235
jbursch@burschlaw.com

